    PERFORMANCE MEASURES FOR DISBURSING STATIONS


Report No. D-2001-024                   December 22, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies
  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits
  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

  Defense Hotline
  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
FBWT                  Fund Balance With Treasury
                        Office of the Inspector General, DoD
Report No. D-2001-024                                                December 22, 2000
 (Project No. D1999FD-0065.001)
 (formerly Project No. 9FD-2025.01)

                Performance Measures for Disbursing Stations

                                  Executive Summary

Introduction. This is the fifth in a series of audits on the Fund Balance With Treasury
account (an asset account) performed in response to the Chief Financial Officers Act of
1990, as amended by the Federal Financial Management Act of 1994, and the Federal
Financial Management Improvement Act of 1996. This report discusses the
development and use of performance measures to assess the effectiveness of disbursing
stations’ management of differences in deposits, interagency transfers, and checks
issued. The FY 1999 DoD Agency-Wide financial statements reported total assets of
$599 billion, including $175.7 billion in the Fund Balance With Treasury account.

Objectives. The overall audit objective was to assess controls over the collections and
disbursements reported to the Defense Finance and Accounting Service (DFAS) Centers
and the U.S. Treasury. This report focuses on the objective as it applies to the
measurement of DoD disbursing stations’ performance in reconciling differences in
deposits, interagency transfers, and checks issued. We also reviewed the adequacy of
the management control program as it applied to the audit objective.

Results. DFAS lacked a plan to measure and improve the performance of DoD
disbursing stations in reconciling differences in deposits, interagency transfers, and
checks issued. DFAS did not measure the performance of:

       •   353 (90.1 percent) of the 392 disbursing stations with deposit activity,

       •   67 (64.4 percent) of the 104 disbursing stations with interagency transfer
           activity, and

       •   500 of the 500 disbursing stations with checks issued activity, as reported on
           the U.S. Treasury’s Statements of Differences or Comparison Reports.

As a result, DFAS could not identify disbursing stations with significant unreconciled
differences. The disbursing stations with the 10 largest average differences in deposits,
interagency transfers, and checks issued accounted for $3.5 billion (58.3 percent) of
the $6 billion average difference (absolute value) reported on the September 30, 1999,
and April 30, 2000, Statements of Differences and Comparison Reports. Reconciliation
of those disbursing stations’ differences would significantly reduce the total DoD
differences in deposits, interagency transfers, and checks issued and improve the
accuracy and auditability of the DoD Fund Balance With Treasury account.
The management controls that we reviewed were adequate in that no material
weaknesses were identified. For details on the audit results, see the Finding section.
See Appendix A for details on our review of the management control program.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller/Chief Financial Officer) and the Director, DFAS, revise the DFAS
performance contract with the Defense Management Council to add a performance
measure for disbursing stations’ unreconciled differences in deposits, interagency
transfers, and checks issued. We recommend that the Director, DFAS, establish a
performance plan to measure the performance of all DoD disbursing stations in
reconciling differences in deposits, interagency transfers, and checks issued; establish a
strategic plan to focus DFAS and Service reconciliation resources on disbursing stations
with significant differences; and establish action plans with detailed metrics to improve
the performance of the DFAS disbursing stations with significant differences. We
recommend that the Director, DFAS, and the Army, the Navy, and the Air Force
establish action plans to improve the performance of the Service disbursing stations
with significant differences.

Management Comments. The Under Secretary of Defense (Comptroller/Chief
Financial Officer) concurred, but stated that the FY 2001 DFAS Performance Contract
has been signed, so a new performance measure cannot be added at this time. DFAS
concurred, stating that a performance measure for disbursing stations’ differences will
be added to the DFAS Performance Contract for FY 2002 if significant improvements
do not result from the other actions recommended in this report. DFAS also agreed to
establish performance plans, strategic plans, and action plans with detailed metrics for
DFAS disbursing stations with significant differences. In addition, DFAS agreed to
work with the Army, the Navy, and the Air Force to establish action plans with detailed
metrics for Service disbursing stations with significant differences. The Army
suggested changing the wording of the recommendation to require DFAS to establish
the action plans and the Services to assist DFAS. The Navy and the Air Force agreed
to work with DFAS to establish action plans with detailed metrics for their disbursing
stations. A complete discussion of management comments is in the Finding section of
the report, and the complete text of management comments is in the Management
Comments section of the report.

Audit Response. The Army comments were partially responsive, but do not state
specifically how the Army will implement corrective actions. We request that the
Assistant Secretary of the Army (Financial Management and Comptroller) provide
additional comments in response to this final report by February 22, 2001.




                                            ii
Table of Contents

Executive Summary                                                              i

Introduction
     Background                                                                1
     Objectives                                                                3

Finding
     Performance Measures for Disbursing Stations                              4

Appendixes
     A. Audit Process
            Scope and Methodology                                             15
            Management Control Program Review                                 17
     B. Prior Coverage                                                        18
     C. Statement of Transactions and the Fund Balance With Treasury
          Account                                                             20
     D. Processes for Identifying Differences and Recording Transactions in
          the Fund Balance With Treasury Account                              21
     E. Disbursing Stations With the 10 Largest Average Differences in
          Deposits at Each DFAS Center                                        22
     F. Disbursing Stations With the 10 Largest Average Differences in
          Interagency Transfers at Each DFAS Center                           25
     G. Disbursing Stations With the 10 Largest Average Differences in
          Checks Issued at Each DFAS Center                                   28
     H. Report Distribution                                                   31

Management Comments
     Under Secretary of Defense (Comptroller/Chief Financial Officer)         33
     Department of the Army                                                   34
     Department of the Navy                                                   35
     Department of the Air Force                                              37
     Defense Finance and Accounting Service                                   38
           This is the fifth in a series of audits on the Fund Balance With Treasury
           (FBWT) account (an asset account)1 performed in response to Public
           Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
           as amended by Public Law 103-356, the “Federal Financial Management Act of
           1994,” October 13, 1994, and Public Law 104-208, the “Federal Financial
           Management Improvement Act of 1996,” September 30, 1996. This report
           discusses the development and use of performance measures to assess the
           effectiveness of disbursing stations’ management of differences in deposits,
           interagency transfers, and checks issued.

           The first three reports assessed the reconciliation of differences in deposits,
           interagency transfers, and checks issued against the FBWT account. The fourth
           report discussed the disclosure of differences in deposits, interagency transfers,
           and checks issued in the FY 1999 DoD Agency-Wide financial statements. The
           FY 1999 DoD Agency-Wide financial statements reported total assets of
           $599 billion, including $175.7 billion in the FBWT account.


Background
           The U.S. Treasury makes disbursements and collections for all Federal agencies
           except for those agencies it has authorized to make disbursements on its behalf.
           The U.S. Treasury provided disbursing authority to DoD, the U.S. Postal
           Service, the U.S. Marshals Service, U.S. Courts, the Commodity Credit
           Corporation, and the Department of State (primarily overseas locations).2 Each
           of the agencies, including DoD, established disbursing stations to handle money
           from the U.S. Treasury. The disbursing stations are authorized to make
           deposits, to initiate interagency transfers, and to issue U.S. Treasury checks.

           Statement of Accountability. Disbursing stations are accountable to the U.S.
           Treasury for their disbursements and collections. Each disbursing station is
           required to prepare a monthly SF 1219, “Statement of Accountability,” which
           reports information to the U.S. Treasury on deposits, interagency transfers, and
           checks issued. The Statement of Accountability also reports net
           disbursements—the sum of the deposits, interagency transfers, and checks issued
           that month.

           Each DoD disbursing station submits its Statement of Accountability to a finance
           center. Army disbursing stations report to the Defense Finance and Accounting
           Service (DFAS) Indianapolis Center, Indianapolis, Indiana; Navy disbursing
           stations report to the DFAS Cleveland Center, Cleveland, Ohio; and Air Force
           disbursing stations report to the DFAS Denver Center, Denver, Colorado. The
           U.S. Army Corps of Engineers’ (Corps) disbursing stations report to the Corps’
           Finance Center, Millington, Tennessee.


1
    A Federal entity’s Fund Balance With Treasury account is the aggregate amount of funds in the entity’s
    accounts with the U.S. Treasury for which the entity is authorized to make expenditures and pay
    liabilities.
2
    Congress subsequently provided under section 3321, title 31, United States Code, disbursement
    authority to DoD.


                                                      1
           Each of the four finance centers combines the Statements of Accountability
           received from its disbursing stations and electronically submits a combined
           Statement of Accountability to the U.S. Treasury using the Government On-line
           Accounting Link System, a Federal financial telecommunications network.

           Reconciliations. The U.S. Treasury reconciles deposits, interagency transfers,
           and checks issued as reported on the combined Statements of Accountability
           with U.S. Treasury control totals and reports the differences to the finance
           centers and disbursing stations for their reconciliation. The U.S. Treasury
           obtains control totals from the CA$HLINK3 system for deposits, the On-line
           Payment and Collection System4 for interagency transfers, and the Defense
           Check Reconciliation Module5 for checks issued.

           The U.S. Treasury produces three separate reports on differences in deposits,
           interagency transfers, and checks issued. The U.S. Treasury reports:

                   •    differences in deposits on the Department of the Treasury Financial
                        Management Service Form 6652, “Statement of Differences, Deposit
                        Transactions” (Statement of Differences for Deposits);

                   •    differences in interagency transfers on the Department of the
                        Treasury Financial Management Service Form 6652, “Statement of
                        Differences, Disbursing Office Transactions” (Statement of
                        Differences for Interagency Transfers); and

                   •    differences in checks issued on the “Comparison of Checks Issued—
                        Detail Reported on Statements of Accountability and Block Control
                        Level Totals” report (the Comparison Report).

           The U.S. Treasury sends the Statements of Differences and Comparison Reports
           to DoD disbursing stations monthly through the finance centers. The U.S.
           Treasury sends the Statements of Differences to the finance centers on
           microfiche and electronically through the Government On-line Accounting Link
           System. The U.S. Treasury sends paper copies of the Comparison Report to the
           finance centers; an electronic copy of the report is not available through the
           Government On-line Accounting Link System. DFAS headquarters also obtains
           copies of the Statements of Differences from the U.S. Treasury.




3
    CA$HLINK is a worldwide reporting system showing disbursement and collection transactions reported
    by Federal Reserve District Banks and commercial bank depositories. The transactions include
    electronic funds transfer disbursements and cash, check, and credit card collections.
4
    The On-line Payment and Collection System is an automated application available to Federal
    organizations through the Government On-line Accounting Link System. The On-line Payment and
    Collection System is used for interagency financial transactions.
5
    All DoD disbursing stations report their checks issued weekly or monthly to the Defense Check
    Reconciliation Module at the DFAS Denver Center. The DFAS Denver Center, using the Defense
    Check Reconciliation Module, electronically transmits all data on checks issued (the Weekly
    Transmission Report) received from DoD disbursing stations to the U.S. Treasury.


                                                    2
     Statement of Transactions. Each DoD disbursing station is also required to
     prepare a monthly SF 1220, “Statement of Transactions,” which reports the
     disbursements shown on the Statement of Accountability by appropriation. The
     U.S. Treasury requires that the net disbursements reported on the Statement of
     Transactions agree with the net disbursements reported on the Statement of
     Accountability. See Appendix C for a discussion of the Statement of
     Transactions and the FBWT account. See Appendix D for a flowchart
     describing the processes for identifying differences and recording transactions in
     the FBWT account.



Objectives
     The overall audit objective was to assess controls over the collections and
     disbursements reported to the DFAS Centers and the U.S. Treasury. This
     report focuses on the objective as it applies to the measurement of DoD
     disbursing stations’ performance in reconciling differences in deposits,
     interagency transfers, and checks issued. We also reviewed the adequacy of the
     management control program as it applied to the audit objective. Appendix A
     discusses the audit scope and methodology and the review of the management
     control program, and Appendix B lists prior audits related to the objectives.




                                         3
            Performance Measures for Disbursing
            Stations
            DFAS lacked a plan to measure and improve the performance of DoD
            disbursing stations in reconciling differences in deposits, interagency
            transfers, and checks issued. DFAS did not measure the performance
            of:

                   •   353 (90.1 percent) of the 392 disbursing stations with deposit
                       activity,

                   •   67 (64.4 percent) of the 104 disbursing stations with
                       interagency transfer activity, and

                   •   500 of the 500 disbursing stations with checks issued activity,
                       as reported on the U.S. Treasury’s Statements of Differences
                       or Comparison Reports.

            DFAS did not measure performance because it had not established
            performance measures and action plans to identify and improve the
            performance of DoD disbursing stations with significant differences in
            deposits, interagency transfers, or checks issued. As a result, DFAS
            could not identify disbursing stations with significant unreconciled
            differences. The disbursing stations with the 10 largest average
            differences in deposits, interagency transfers, and checks issued
            accounted for $3.5 billion (58.3 percent) of the $6 billion average
            difference (absolute value) reported on the September 30, 1999, and
            April 30, 2000, Statements of Differences and Comparison Reports.
            Reconciliation of those disbursing stations’ differences could
            significantly reduce the total DoD differences in deposits, interagency
            transfers, and checks issued and improve the accuracy and auditability of
            the DoD FBWT account.



Guidance for Reconciling Differences
     Reconciling FBWT accounts, including the reconciliation of differences, is a
     key internal control process. Reconciliation ensures the reliability of the
     Government’s receipt and disbursement data reported by agencies. Therefore,
     all Government agencies must perform timely reconciliations and implement
     effective and efficient reconciliation processes. Unresolved differences
     compromise the reliability of FBWT account balances, the U.S. Treasury’s
     published financial reports, and the overall status and integrity of the
     Government’s financial position.




                                         4
           To assist DoD and other Government agencies in their reconciliation efforts, the
           U.S. Treasury has updated its FBWT guidance and established a FBWT Home
           Page. The U.S. Treasury Financial Management Service Home Page6 provides
           updated FBWT guidance from the “Treasury Financial Manual,” October 18,
           1999, and describes actions taken in response to recommendations made in a
           General Accounting Office report7 on the FBWT account. The U.S. Treasury
           Financial Management Service Home Page also includes a performance measure
           for improving agencies’ reconciliation of their FBWT accounts. The
           performance measure calls for a reduction in the number of disbursing stations
           with 6 or more months of unreconciled differences.

           U.S. Treasury Guidance. Volume I, part 2, chapter 5100, of the Treasury
           Financial Manual, “Reconciling Fund Balance With Treasury Accounts,”
           requires agencies to investigate all differences in deposits, interagency transfers,
           and checks issued. Agencies are required to reconcile those differences
           monthly. The U.S. Treasury is also developing standard operating procedures
           for reconciling the FBWT account.

           DoD Guidance. DoD Regulation 7000.14-R, “DoD Financial Management
           Regulation,” volume 5, “Disbursing Policy and Procedures,” August 6, 1999,
           requires disbursing stations to reconcile differences in deposits and interagency
           transfers reported by the U.S. Treasury on the Statements of Differences. In
           response to Inspector General, DoD, recommendations.8 the Under Secretary of
           Defense (Comptroller) agreed to revise DoD Regulation 7000.14-R to require
           disbursing stations to reconcile differences in checks issued reported by the U.S.
           Treasury on the Comparison Report.



Measuring Disbursing Station Performance in Reconciling
 Differences
           DFAS headquarters lacked a plan to measure the performance of DoD
           disbursing stations in reconciling differences in deposits, interagency transfers,
           and checks issued. DFAS headquarters did not compile information on
           differences in deposits, interagency transfers, or checks issued for all DoD
           disbursing stations. DFAS headquarters did not measure the performance for
           353 (90.1 percent) of the 392 disbursing stations with deposit activity,
           67 (64.4 percent) of the 104 disbursing stations with interagency transfer
           activity, and 500 of the 500 disbursing stations with checks issued activity, as
           reported on the Statements of Differences and Comparison Reports.



6
    http://www.fms.treas.gov/sitemap.html
7
    General Accounting Office Report No. AIMD-99-3, “Financial Audit: Issues Regarding Reconciliations
    of Fund Balances With Treasury Accounts,” October 14, 1998.
8
    Inspector General, DoD, Report No. D-2000-044, “Reconciliation of Differences Reported for Checks
     Issued by the Defense Finance and Accounting Service Columbus Center Disbursing Stations,”
     November 30, 1999.


                                                    5
Identifying Disbursing Stations With Significant Differences
            DFAS headquarters did not identify disbursing stations with significant
            unreconciled differences in deposits, interagency transfers, and checks issued.
            Therefore, we used the Statements of Differences and the Comparison Reports
            to identify disbursing stations with significant differences. We computed each
            disbursing station’s average difference in deposits, interagency transfers, and
            checks issued, and ranked the disbursing stations in descending order based on
            their average differences. The 10 largest average differences (absolute value) in
            each category on a DoD-wide basis were considered to be the DoD disbursing
            stations with the most significant differences.

            We conducted three additional analyses for each of the 10 disbursing stations
            with significant differences in deposits, interagency transfers, or checks issued.
            First, we determined whether the disbursing stations with the largest average
            differences exceeded the U.S. Treasury performance measure of 6 or more
            months of unreconciled differences. Second, we determined whether disbursing
            stations with the largest average differences in one category (deposits,
            interagency transfers, or checks issued) had large differences in one of the other
            two categories. Third, we computed a ratio to determine whether the
            differences were due to the amount of the disbursements made by the disbursing
            station.9 See the Scope and Methodology section of Appendix A for a detailed
            discussion on our calculations.

            Disbursing Stations With the 10 Largest Average Differences. The U.S.
            Treasury’s September 30, 1999, and April 30, 2000, Statements of Differences
            and Comparison Reports reported to the DoD unreconciled differences that
            averaged $6 billion. The disbursing stations with the 10 largest average
            differences in deposits, interagency transfers, and checks issued accounted for
            $3.5 billion (58.3 percent) of the $6 billion average difference. The
            10 disbursing stations accounted for:

                     •   $1.5 billion (75 percent) of the $2 billion average DoD deposit
                         difference,

                     •   $689.9 million (85.6 percent) of the $805.8 million average DoD
                         interagency transfer difference, and

                     •   $1.3 billion (40.6 percent) of the $3.2 billion average DoD checks
                         issued difference.

                    Differences in Deposits. The U.S. Treasury reported deposits for
            392 disbursing stations on the September 30, 1999, and the April 30, 2000,
            Statements of Differences. Of the 392 disbursing stations, 371 disbursing
            stations showed deposit differences and 21 disbursing stations showed no deposit
            differences. Deposit differences for the 371 disbursing stations averaged
            $2 billion. The disbursing stations with the 10 largest average deposit
            differences DoD-wide accounted for $1.5 billion (75 percent) of the $2 billion
            average of DoD deposit differences and $126.5 billion (77 percent) of the

9
    The results of the third analysis are shown in the last column of the tables in Appendixes E, F, and G.


                                                       6
$164.2 billion average of DoD deposit activity. Table 1 shows the average
number of months the disbursing stations (DoD-wide) had differences. See
Appendix E for tables showing the disbursing stations with the 10 largest
average differences in deposits at each of the DFAS Centers.

   Table 1. Average Months of Unreconciled Differences at the Disbursing
    Stations with the 10 Largest Average Differences (Absolute Value) in
                            Deposits: DoD-Wide
                                  (millions)

                                                       Average        Average
             Disbursing        Disbursing              Deposit       Months of
 Rank     Station Number    Station Location          Differences    Differences
  1            178522    Cleveland, Ohio               $ 355.3          17.5
  2            578541    Columbus, Ohio                   259.9          3.5
  3            578559    Columbus, Ohio                   179.8          5.5
   4          573801        Denver, Colorado              179.7           6.0
   5          216355        Columbus, Ohio                136.7          13.5
   6          170001        Arlington, Virginia            94.3           8.0
   7          215570        Indianapolis, Indiana          89.3           7.5
   8          178565        Columbus, Ohio                 87.5           2.5
   9          178347        Charleston, South              83.0           4.0
                            Carolina
   10         216422        Columbus, Ohio                 63.4           2.0

 Total                                                 $1,528.9


       Of the 10 disbursing stations, 5 exceeded the U.S. Treasury performance
measure with 6 or more months of unreconciled deposit differences (average).
The five disbursing stations ranged from an average of 6 months to 17.5 months
of unreconciled deposit differences.

        DFAS operates 9 of the 10 disbursing stations and the Navy operates the
remaining disbursing station (disbursing station 170001). Of the 10 disbursing
stations, 5 are located at the DFAS Columbus Center.

        Differences in Interagency Transfers. The U.S. Treasury reported
interagency transfers for 104 disbursing stations on the September 30, 1999, and
April 30, 2000, Statements of Differences. Of the 104 disbursing stations,
87 showed interagency transfer differences and 17 showed no interagency
transfer differences. Interagency transfer differences for the 87 disbursing
stations averaged $805.8 million. The disbursing stations with the 10 largest
average interagency transfer differences DoD-wide accounted for $689.9 million
(85.6 percent) of the $805.8 million average of DoD interagency transfer
differences and $6.1 billion (32.4 percent) of the $18.8 billion average of DoD
interagency transfer activity. Table 2 shows the average number of months the


                                   7
disbursing stations (DoD-wide) had differences. See Appendix F for tables
showing the disbursing stations with the 10 largest average differences in
interagency transfers at each of the DFAS Centers.

       Table 2. Average Months of Unreconciled Differences at the Disbursing
        Stations With the 10 Largest Average Differences (Absolute Value) in
                         Interagency Transfers: DoD-Wide
                                      (millions)

                                                                  Average
                                                                Interagency        Average
                  Disbursing        Disbursing                    Transfer        Months of
     Rank      Station Number    Station Location               Differences       Differences
      1             215570    Indianapolis, Indiana                $143.0             1.0
      2             215286    Omaha, Nebraska1                      109.4             7.0
      3             175207    Bayonne, New Jersey2                  102.9                 7.0
       4           216551          Columbus, Ohio                     73.1            12.5
       5           178380          Pensacola, Florida                 64.4            17.5
       6           575257          Omaha, Nebraska                    56.7             2.0
       7           175242          San Diego, California              51.2            13.5
       8           175245          Norfolk, Virginia                  42.4            13.5
       9           178347          Charleston, South                  23.7             2.5
                                   Carolina
       10          216410          Rock Island, Illinois              23.1            16.0

     Total                                                         $689.9
1
    Closed May 1, 1997, and transferred to DFAS disbursing station 575257, Omaha, Nebraska.
2
    Closed December 10, 1997, and transferred to DFAS disbursing station 575257, Omaha,
    Nebraska.
       Of the 10 disbursing stations, 7 exceeded the U.S. Treasury performance
measure with 6 or more months of unreconciled interagency transfer differences
(average). The seven disbursing stations ranged from an average of 7 months to
17.5 months of unreconciled interagency transfer differences. Although DFAS
operates all 10 disbursing stations, interagency transfer differences were not
concentrated at one DFAS location.

        Differences in Checks Issued. The U.S. Treasury reported checks
issued for 500 disbursing stations on the September 30, 1999, and the April 30,
2000, Comparison Reports. Of the 500 disbursing stations, 481 disbursing
stations showed checks issued differences and 19 disbursing stations showed no
checks issued differences. Checks issued differences for the 481 disbursing
stations averaged $3.2 billion. The disbursing stations with the 10 largest
average checks issued differences DoD-wide accounted for $1.3 billion
(40.6 percent) of the $3.2 billion average of DoD checks issued differences and
$19.2 billion (17.6 percent) of the $108.8 billion average of DoD checks issued
activity. Table 3 shows the average number of months the disbursing stations

                                           8
(DoD-wide) had differences. See Appendix G for tables showing the disbursing
stations with the 10 largest average differences in checks issued at each of the
DFAS Centers.

       Table 3. Average Months of Unreconciled Differences at the Disbursing
        Stations With the 10 Largest Average Differences (Absolute Value) in
                             Checks Issued: DoD-Wide
                                      (millions)

                                                                    Average           Average
                  Disbursing           Disbursing Station            Checks          Months of
     Rank      Station Number              Location                  Issued          Differences
                                                                   Differences
       1            175207          Bayonne, New Jersey             $ 176.9               41.0
       2            175234          Oakland, California                158.5              56.5
       3            175245          Norfolk, Virginia                  146.0              38.0
       4            968736          Millington, Tennessee1              134.9              3.5
       5            576596          Ramstein, Germany2                  133.2             26.0
       6            178522          Cleveland, Ohio                     121.5             12.5
       7            175704          Columbus, Ohio3                     110.9              4.5
       8            218735          Millington, Tennessee               110.5              1.0
       9            576599          Washington, D.C.                     99.2              1.0
      10            216356          Columbus, Ohio                       98.9             10.0
     Total                                                           $1,290.5
1
    Reports to the U.S. Treasury through the Army Corps of Engineers’ finance center at
    Millington, Tennessee.
2
    Transferred to DFAS disbursing station 576789, Ramstein, Germany.
3
    Closed October 31, 1992, and transferred to DFAS disbursing station 178538, Columbus,
    Ohio.
       Of the 10 disbursing stations, 6 exceeded the U.S. Treasury performance
measure with 6 or more months of unreconciled checks issued differences
(average). The six disbursing stations ranged from an average of 10 months to
56.5 months of unreconciled checks issued differences.

        DFAS operates 7 of the 10 disbursing stations. The Army operates two
disbursing stations (disbursing stations 968736 and 218735) and the Air Force
operates one disbursing station (disbursing station 576599). Checks issued
differences were not concentrated at one location.

Disbursing Stations With Large Differences in More Than One Transaction
Category. Disbursing stations with the largest average differences in checks
issued frequently had large differences in one of the other two transaction
categories (deposits or interagency transfers). Disbursing stations had problems
in more than one transaction category both DoD-wide and at the DFAS Center
level.


                                             9
       DoD-Wide. Of the 10 DoD-wide disbursing stations with the largest
average differences in checks issued, 3 (see Table 4) were also among the
disbursing stations within DoD with the 10 largest average differences in
deposits (1 disbursing station) or interagency transfers (2 disbursing stations).

     Table 4. Disbursing Stations With Large Average Differences in More Than One
                           Transaction Category: DoD-Wide

     Disbursing                                    Ranking of Average Differences Within DoD
      Station            Disbursing           Checks Issued         Deposits     Interagency Transfers
      Number          Station Location
      175207         Bayonne, New                     1                  *
                                                                                          3
                     Jersey
       175245        Norfolk, Virginia                3                  *
                                                                                          8
       178522        Cleveland, Ohio                  6                  1                 *



*
    Not ranked among the disbursing stations with the 10 largest differences.



        DFAS Cleveland Center. Of the 10 DFAS Cleveland Center disbursing
stations with the largest average differences in checks issued, 8 (see Table 5)
were also among the DFAS Cleveland Center disbursing stations with the
10 largest average differences in deposits (5 disbursing stations) or interagency
transfers (6 disbursing stations).

        Table 5. DFAS Cleveland Center Disbursing Stations With Large Average
                   Differences in More Than One Transaction Category
                                              Ranking of Average Differences
     Disbursing                              Within the DFAS Cleveland Center
      Station         Disbursing
      Number       Station Location   Checks Issued Deposits Interagency Transfers
      175207     Bayonne, New
                 Jersey                     1             *
                                                                          1
      175234     Oakland, California        2             *
                                                                          7
      175245     Norfolk, Virginia          3            10               4
      178522     Cleveland, Ohio            4            1                9
      175704     Columbus, Ohio             5             *               *


       178380        Pensacola, Florida                   6                  8            2
       178347        Charleston, South
                     Carolina                             7                  4            5
       178538        Columbus, Ohio                       8                  6             *



*
    Not ranked among the disbursing stations with the 10 largest differences.




                                              10
        DFAS Denver Center. Of the 10 DFAS Denver Center disbursing
stations with the largest average differences in checks issued, 7 (see Table 6)
were also among the DFAS Denver Center disbursing stations with the
10 largest average differences in deposits (7 disbursing stations) or interagency
transfers (5 disbursing stations).

          Table 6. DFAS Denver Center Disbursing Stations With Large Average
                   Differences in More Than One Transaction Category
                                                            Ranking of Average Differences
    Disbursing                                              Within the DFAS Denver Center
     Station               Disbursing
     Number             Station Location         Checks Issued        Deposits   Interagency Transfers
                                                                                           *
       576599        Washington, D.C.                 2                  8
       576789        Ramstein, Germany                5                  9                8
       575257        Omaha, Nebraska                  6                  5                1
       576688        Yokota, Japan                    7                  6                5
       573801        Denver, Colorado                  8                 3                3
                                                                                           *
       578559        Columbus, Ohio                   9                  2
       575030        Dayton, Ohio                     10                 7                4
*
    Not ranked among the disbursing stations with the 10 largest differences.



        DFAS Indianapolis Center. Of the 10 DFAS Indianapolis Center
disbursing stations with the largest average differences in checks issued, 6 (see
Table 7) were also listed among the DFAS Indianapolis Center disbursing
stations with the 10 largest average differences in deposits (5 disbursing stations)
or interagency transfers (3 disbursing stations).

      Table 7. DFAS Indianapolis Center Disbursing Stations With Large Average
                  Differences in More Than One Transaction Category
                                              Ranking of Average Differences
                                            Within  the DFAS Indianapolis Center
    Disbursing
     Station            Disbursing                                    Interagency
     Number          Station Location    Checks Issued    Deposits      Transfers
     216356     Columbus, Ohio                 2             4              *


     215499     Mons, Belgium                  4             6              *


     215286     Omaha, Nebraska                5             *
                                                                            2
     215570     Indianapolis, Indiana          6             2              1
     216460     Schwetzingen, Germany          9             7              *


     216551     Columbus, Ohio                10             9              3
*
    Not ranked among the disbursing stations with the 10 largest differences.




                                              11
Performance Measures and Action Plans
    DFAS did not establish performance measures and action plans to identify and
    improve the performance of DoD disbursing stations with significant
    unreconciled differences in deposits, interagency transfers, and checks issued.

    Performance Measures. The FY 2000 through FY 2005 DFAS performance
    contract with the Defense Management Council does not include a performance
    measure for disbursing stations’ differences in deposits, interagency transfers,
    and checks issued. However, the DFAS performance contract does include
    other performance measures to improve DoD financial management and achieve
    an unqualified audit opinion on the DoD Agency-Wide financial statements. In
    addition, DFAS had not established a performance plan to measure the
    performance of all DoD disbursing stations in reconciling differences in
    deposits, interagency transfers, and checks issued.

    Action Plans. Performance measure data are necessary to establish effective
    strategic plans that focus scarce DFAS and Service reconciliation resources on
    disbursing stations requiring the most management attention. Performance
    measure data are also needed to establish detailed metrics for action plans to
    improve the performance of individual DoD disbursing stations with significant
    differences in deposits, interagency transfers, and checks issued.



Conclusion
    The Statements of Differences and Comparison Reports are among the U.S.
    Treasury’s primary controls over non-Treasury disbursing offices. DFAS
    headquarters should make full use of those tools to measure the performance of
    all DoD disbursing stations in reconciling differences. DFAS and the Services
    should use performance measure data to focus their scarce reconciliation
    resources on the disbursing stations that need the most improvement.
    Reconciliation of the disbursing stations’ differences could significantly reduce
    deposit, interagency transfer, and checks issued differences, and improve the
    accuracy of the DoD FBWT account.



Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense (Comptroller/Chief
    Financial Officer) and the Director, Defense Finance and Accounting
    Service, revise the Defense Finance and Accounting Service performance
    contract with the Defense Management Council to add a performance
    measure for disbursing stations’ unreconciled differences in deposits,
    interagency transfers, and checks issued.



                                        12
Management Comments. The Under Secretary of Defense (Comptroller/Chief
Financial Officer) concurred, but stated that the FY 2001 DFAS Performance
Contract has been signed, so a new performance measure cannot be added at
this time. The Acting Director for Finance, DFAS, concurred, stating that this
action will be added to the DFAS Performance Contract for FY 2002 if
significant improvements do not result from the other actions recommended in
this report. Although not required to comment, the Air Force concurred with
the recommendation.

2. We recommend that the Director, Defense Finance and Accounting
Service:

       a. Establish a performance plan to measure the performance of all
DoD disbursing stations in reconciling differences in deposits, interagency
transfers, and checks issued;

       b. Establish a strategic plan to focus Defense Finance and
Accounting Service and Service reconciliation resources on disbursing
stations with significant differences in deposits, interagency transfers, or
checks issued; and

       c. Establish action plans with detailed metrics to improve the
performance of the Defense Finance and Accounting Service disbursing
stations with significant differences in deposits, interagency transfers, or
checks issued.

Management Comments. The Acting Director for Finance, DFAS, concurred,
stating that DFAS will establish performance plans, strategic plans, and action
plans with detailed metrics for DFAS disbursing stations with significant
differences. DFAS stated that it will complete the actions by March 30, 2001.

3. We recommend that the Director, Defense Finance and Accounting
Service, and the Assistant Secretaries (Financial Management and
Comptroller) of the Army, the Navy, and the Air Force establish action
plans with detailed metrics to improve the performance of the Service
disbursing stations with significant differences in deposits, interagency
transfers, or checks issued.

Management Comments. The Acting Director for Finance, DFAS, concurred,
stating that DFAS will work with the Army, the Navy, and the Air Force to
establish action plans with detailed metrics for Service disbursing stations with
significant differences. The Deputy Assistant Secretary of the Army (Financial
Operations) suggested changing the wording of the recommendation to require
DFAS to establish the action plans and the Services to assist the DFAS. Also,
the Army suggested an additional recommendation to require that the Assistant
Secretaries (Financial Management and Comptroller) follow up with Service
disbursing officers who fail to meet an acceptable level of performance. The
Navy and the Air Force agreed to work with DFAS to establish action plans
with detailed metrics for their disbursing stations with significant differences.

Audit Response. DFAS, Navy, and Air Force comments are fully responsive.
The Army comments are partially responsive. In addition, we do not believe it
is appropriate to revise the recommendation as suggested by the Army because


                                   13
DFAS should not be primarily responsible for developing action plans with
detailed metrics for Army disbursing stations. Only Army financial managers
are in a position to determine and take the specific actions required to improve
the performance of individual Army disbursing stations. Corrective actions
could range from improvements in operating procedures or other management
changes to redistribution of staffing or workload. The Army and DFAS should
have a joint responsibility for preparing the action plans. We did not adopt the
followup recommendation suggested by the Army because the action is implicit
in the performance measurement process. We request that the Assistant
Secretary of the Army (Financial Management and Comptroller) provide
additional comments on the recommendation.




                                   14
Appendix A. Audit Process


Scope and Methodology
        We obtained electronic files of the U.S. Treasury’s Statements of Differences
        and a copy of the U.S. Treasury’s Comparison Reports for DoD for
        September 30, 1999, and April 30, 2000. The Statements of Differences and
        the Comparison Reports reflect amounts shown on the Statements of
        Accountability and in U.S. Treasury control totals for all DoD disbursing
        stations with differences, including disbursing stations with zero dollar
        differences.

        Using a spreadsheet application, we manipulated the electronic Statements of
        Differences files. To ensure the integrity of the electronic data, we compared
        control totals from the spreadsheet with control totals from the U.S. Treasury’s
        Statements of Differences. In addition, we manually converted the Comparison
        Reports to a spreadsheet application and similarly compared control totals with
        the U.S. Treasury’s Comparison Reports. We also compared the Statements of
        Differences data that we obtained from the U.S. Treasury with the DFAS
        Centers’ data. We coordinated our efforts with personnel from the Department
        of the Treasury Financial Management Service, the General Accounting Office,
        DFAS headquarters, and the DFAS Centers.

        We determined the absolute dollar value of differences in deposits, interagency
        transfers, and checks issued for each individual disbursing station. The absolute
        value for each disbursing station represents the sum of the absolute values for
        each month with an outstanding difference.10 We ranked the disbursing stations
        in descending order based on the absolute value of their differences. Separate
        rankings were developed for differences in deposits, interagency transfers, and
        checks issued. Rankings were done DoD-wide and for each finance center.

        In addition, we reviewed the Treasury Financial Manual and DoD
        Regulation 7000.14-R, and we interviewed operating personnel from the
        Department of the Treasury Financial Management Service and DFAS.

        DoD-Wide Corporate-Level Government Performance and Results Act
        Coverage. In response to the Government Performance and Results Act, the
        Secretary of Defense annually establishes DoD-wide corporate-level goals,



10
 The U.S. Treasury computes differences for each DoD disbursing station monthly. For example, if a
 disbursing station had 15 previous months with uncorrected differences, the disbursing station would
 have 15 separate differences at month end. The differences represent Statements of Accountability that
 either overstate or understate amounts shown in U.S. Treasury control totals. If the disbursing station
 in the above example had 7 months with overstatements and 8 months with understatements, the
 absolute value of the overstatements and understatements would be computed by considering the
 differences for all 15 months as positive. In computing the absolute value of the differences,
 overstatements would not offset understatements.


                                                   15
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal, subordinate performance goal, and
performance measures:

       FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
       future by pursuing a focused modernization effort that maintains U.S.
       qualitative superiority in key warfighting capabilities. Transform the
       force by exploiting the Revolution in Military Affairs, and reengineer the
       Department to achieve a 21st century infrastructure. (01-DoD-2)

       FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
       and information management. (01-DoD-2.5)

       FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
       on financial statements. (01-DoD-2.5.2)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following financial management functional
area objectives and goals.

       Objective: Reengineer DoD business practices. Goal: Improve data
       standardization of finance and accounting data items. (FM-4.4)
       Objective: Strengthen internal controls. Goal: Improve compliance
       with the Federal Managers’ Financial Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the Department of Defense. This report
provides coverage of the Defense Financial Management high-risk area.

Use of Computer-Processed Data. We relied on computer-processed data
from the U.S. Treasury’s accounting and reporting system to determine the
September 30, 1999, and April 30, 2000, differences for deposits, interagency
transfers, and checks issued. Specifically, we relied on computer-processed
difference data from the U.S. Treasury’s Statements of Differences and
Comparison Reports. Although we did not perform a formal reliability
assessment of the computer-processed data, we determined that data on deposits,
interagency transfers, and checks issued that DoD reported to the U.S. Treasury
on Statements of Accountability agreed with corresponding computer-processed
data. We did not find errors that would preclude the use of computer-processed
data to meet the audit objectives or that would change the conclusions in the
report.

Audit Type, Dates, and Standards. We performed this financial-related audit
from March through August 2000 in accordance with auditing standards issued
by the Comptroller General of the United States, as implemented by the
Inspector General, DoD. We included tests of management controls considered
necessary.

Contacts During the Audit. We visited or contacted individuals and
organizations in DoD and at the Department of the Treasury, Hyattsville,
Maryland. Further details are available on request.



                                   16
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    Office of the Under Secretary of Defense (Comptroller/Chief Financial Officer)
    (the Comptroller) and the DFAS controls over differences in deposits,
    interagency transfers, and checks issued that are reported on the Statements of
    Differences and the Comparison Reports. Specifically, we reviewed controls
    over the use of the Statements of Differences and the Comparison Reports to
    measure DoD disbursing stations’ performance in reconciling differences in
    deposits, interagency transfers, and checks issued. Because we did not identify
    a material weakness, we did not assess the Comptroller and the DFAS
    self-evaluations applicable to those controls.

    Adequacy of Management Controls. The controls that we reviewed at the
    Comptroller and DFAS were generally adequate in that we identified no
    material management control weaknesses as defined by DoD
    Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996.




                                      17
Appendix B. Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports. The audit organizations
    have issued the following reports related to financial statement issues involving
    the FBWT account.


General Accounting Office
    Report No. GAO/AIMD-99-3, “Financial Audit: Issues Regarding
    Reconciliations of Fund Balances With Treasury Accounts,” October 14, 1998.

Inspector General, DoD
    Report No. D-2000-123, “Disclosure of Differences in Deposits, Interagency
    Transfers, and Checks Issued in the FY 1999 DoD Agency-Wide Financial
    Statements,” May 18, 2000.

    Report No. D-2000-044, “Reconciliation of Differences Reported for Checks
    Issued by the Defense Finance and Accounting Service Columbus Center
    Disbursing Stations,” November 30, 1999.

    Report No. 99-226, “Interagency Transfer Reconciliations at Defense Finance
    and Accounting Service Columbus Center Disbursing Stations,” July 28, 1999.

    Report No. 99-211, “Deposit Reconciliations at Defense Finance and
    Accounting Service Columbus Center Disbursing Stations,” July 9, 1999.


Army Audit Agency
    Report No. AA 00-168, “Army’s General Fund Principal Financial Statements
    for Fiscal Year 1999: Summary Audit Report,” February 9, 2000.

    Report No. AA 99-115, “Army’s Principal Financial Statements for Fiscal
    Year 1998, Centralized Disbursing, Defense Finance and Accounting Service
    Indianapolis Center,” January 27, 1999.

    Report No. AA 98-104, “Army’s Principal Financial Statements for Fiscal
    Years 1997 and 1996: Auditor’s Report,” February 13, 1998.




                                        18
Naval Audit Service
    Report No. N2000-0018, “Department of the Navy Principal Statements for
    Fiscal Year 1999,” February 10, 2000.

    Report No. 054-99, “Department of the Navy Principal Statements for Fiscal
    Year 1998: Fund Balance With Treasury,” August 19, 1999.

    Report No. 052-98, “Department of the Navy Principal Statements for Fiscal
    Years 1997 and 1996: Fund Balance With Treasury,” September 30, 1998.


Air Force Audit Agency
    Report No. 99053002, “Opinion on Fiscal Year 1999 Air Force Consolidated
    Financial Statements,” February 9, 2000.

    Report No. 98053002, “Opinion on Fiscal Year 1998 Air Force Consolidated
    Financial Statements,” March 1, 1999.

    Report No. 97053009, “Opinion on Fiscal Year 1997 Air Force Consolidated
    Financial Statements,” February 27, 1998.




                                      19
Appendix C. Statement of Transactions and the
            Fund Balance With Treasury
            Account
   The Statements of Transactions are combined at the finance centers and
   submitted to the U.S. Treasury. The U.S. Treasury records the data from the
   Statements of Transactions in the FBWT account maintained for each
   appropriation in the U.S. Treasury’s Standard Treasury Accounting and
   Reporting System. Each month, the U.S. Treasury reports the outstanding
   balance in the FBWT account to each Government agency on Department of the
   Treasury Financial Management Service Form 6653, “Undisbursed
   Appropriation Account Ledger.”

   The U.S. Treasury sends the Undisbursed Appropriation Account Ledger to
   each agency on microfiche and electronically through the Government On-line
   Accounting Link System. DFAS uses the Undisbursed Appropriation Account
   Ledger to adjust budgetary data to be reported monthly on SF 133, “Report on
   Budget Execution,” and the Department of the Treasury Financial Management
   Service Form 2108, “Yearend Closing Statement.” The budgetary reports are
   the primary financial reports supporting the Combined Statement of Budgetary
   Resources in the DoD Agency-Wide financial statements.




                                    20
Appendix D. Processes for Identifying
            Differences and Recording
            Transactions in the Fund Balance
            With Treasury Account



                                                  U.S. Treasury                                          U.S. Treasury
DoD Disbursement Data                     Financial Management Service                             Independent Control Totals

 Consolidated Statements of                                    The U.S. Treasury compares              CA$HLINK
 Accountability report                                         disbursing station deposits,            (Deposits and
 deposits, interagency         The U.S. Treasury posts the     interagency transfers, and checks       Electronic Fund
 transfers, checks issued,     collections and disbursements   issued from the Consollidated           Transfers)
 and net disbursements by      reported on the Consolidated    Statements of Accountability with
 disbursing station.           Statements of Transactions to   independent U.S. Treasury control
                               the DoD FBWT accounts in        totals and reports the amounts          On-line Payment and
  Consolidated Statements of   the U.S. Treasury accounting    and differences through the             Collection System
  Transactions report the      system. The U.S. Treasury       finance centers to the disbursing       (Interagency
  collections and disburse-    reports the FBWT account        station for reconciliation. The         Transfers)
  ments shown on the           balances by appropriation to    U.S. Treasury reports differences
  Statements of                the finance centers on the      in deposits and interagency
  Accountability by            Undisbursed Appropriation       transfers on the Statements of          Defense Check
  appropriation.               Account Ledger.                 Differences and differences in          Reconciliation Module
                                                               checks issued on the Comparison         (Checks)
                                                               Report.




       Finance
       centers:
       Cleveland
       Denver
       Indianapolis
       Millington
                               Undisbursed
                               Appropriation
                               Account Ledger
      Statements of
      Accountability

       Statements of
       Transactions
                                                               Statement of Differences
                                                               for deposits
                                                                  Statement of Differences
                                Finance                           for interagency transfers
       DoD
       Disbursing               centers                                Comparison Report for
       Stations                                                        checks issued




                                                     21
Appendix E. Disbursing Stations With the
            10 Largest Average Differences in
            Deposits at Each DFAS Center
              Table E-1. Disbursing Stations With the 10 Largest Average Differences
                      (Absolute Value) in Deposits: DFAS Cleveland Center
                                             (millions)

                                                                                                       Ratio of
       Disbursing             Disbursing             Disbursing           Average Deposit            Differences
      Station Rank          Station Number        Station Location          Differences              to Deposits1

             1                   178522           Cleveland, Ohio               $355.3                     0.4

             2                   170001           Arlington,                       94.3                  20.7
                                                  Virginia2
             3                   178565           Columbus, Ohio                   87.5                    3.9

             4                   178347           Charleston,                      83.0                    2.0
                                                  South Carolina

             5                   178558           Columbus, Ohio                   55.5                    3.5

             6                   178538           Columbus, Ohio                   30.1                    0.8

             7                   175242           San Diego,                       13.0                    1.0
                                                  California

             8                   178380           Pensacola,                       12.1                    1.7
                                                  Florida

             9                   176102           Kansas City,                     11.8                    0.5
                                                  Missouri

            10                   175245           Norfolk,                         11.1                    1.5
                                                  Virginia
          Total                                                                 $753.7




1
    The disbursing station’s percentage share of average DoD-wide difference divided by the disbursing
    station’s percentage share of the average DoD-wide U.S. Treasury control total. A disbursing station
    with 4 percent of the average DoD-wide difference and 2 percent of the average DoD-wide U.S.
    Treasury control total would have a ratio of differences to deposits of 2. Disbursing stations with ratios
    greater than 1 have a disproportionate share of deposit differences.
2
    Navy disbursing station.


                                                       22
              Table E-2. Disbursing Stations With the 10 Largest Average Differences
                        (Absolute Value) in Deposits: DFAS Denver Center
                                             (millions)

                                                                                    Ratio of
       Disbursing             Disbursing        Disbursing      Average Deposit   Differences
      Station Rank          Station Number   Station Location     Differences     to Deposits

             1                      578541   Columbus, Ohio         $259.9           5.0

             2                      578559   Columbus, Ohio          179.8           4.9

             3                      573801   Denver,                 179.7           1.6
                                             Colorado

             4                      578560   Columbus, Ohio           34.8           2.6

             5                      575257   Omaha,                    9.8           0.4
                                             Nebraska

             6                      576688   Yokota, Japan1            2.8           1.4
                                                                                       2
             7                      575030   Dayton, Ohio              2.5

             8                      576599   Washington,               2.2           0.7
                                             D.C.1

             9                      576789   Ramstein,                 1.5           0.6
                                             Germany

            10                      576607   San Antonio,              1.2           0.2
                                             Texas

          Total                                                     $674.2




1
    Air Force disbursing station.
2
    Ratio less than 0.05.


                                                23
          Table E-3. Disbursing Stations With the 10 Largest Average Differences
                 (Absolute Value) in Deposits: DFAS Indianapolis Center
                                         (millions)

                                                                                Ratio of
     Disbursing           Disbursing        Disbursing      Average Deposit   Differences
    Station Rank        Station Number   Station Location     Differences     to Deposits

          1                 216355       Columbus, Ohio         $136.7           2.4

          2                 215570       Indianapolis,            89.3           0.4
                                         Indiana

          3                 216422       Columbus, Ohio           63.4           3.6

          4                 216356       Columbus, Ohio           43.4           1.6

          5                 216469       Columbus, Ohio           36.6           1.2

          6                 215499       Mons, Belgium∗           36.0           8.5

          7                 216460       Schwetzingen,            31.3           5.0
                                         Germany*

          8                 216387       Hanau,                   15.1           2.0
                                         Germany*

          9                 216551       Columbus, Ohio           11.8           1.0

         10                 215498       Kaiserslautern,          11.7           3.6
                                         Germany*

       Total                                                    $475.3




∗
 Army disbursing station.


                                             24
Appendix F. Disbursing Stations With the
            10 Largest Average Differences in
            Interagency Transfers at Each
            DFAS Center
              Table F-1. Disbursing Stations With the 10 Largest Average Differences
                (Absolute Value) in Interagency Transfers: DFAS Cleveland Center
                                             (millions)

                                                                              Average                 Ratio of
                                                                            Interagency             Differences
       Disbursing            Disbursing              Disbursing               Transfer            to Interagency
      Station Rank         Station Number         Station Location          Differences             Transfers1

             1                   175207          Bayonne, New                 $102.9                     3.5
                                                 Jersey
             2                   178380          Pensacola,                      64.4                    1.0
                                                 Florida
             3                   175242          San Diego,                      51.2                    2.2
                                                 California
             4                   175245          Norfolk,                        42.4                    3.4
                                                 Virginia
             5                   178347          Charleston,                     23.7                    3.4
                                                 South Carolina
             6                   176102          Kansas City,                    13.8                    0.5
                                                 Missouri
             7                   175234          Oakland,                          8.1                   0.2
                                                 California
            8                    176799          Yokota, Japan2                  6.0                    24.5
            9                    178522          Cleveland, Ohio                 5.2                     0.1
           10                    178728          USS Arctic2,3                   2.9                    39.5
          Total                                                               $320.6



1
    The disbursing station’s percentage share of average DoD-wide difference divided by the disbursing
    station’s percentage share of the average DoD-wide U.S. Treasury control total. A disbursing station
    with 4 percent of the average DoD-wide difference and 2 percent of the average DoD-wide U.S.
    Treasury control total would have a ratio of differences to interagency transfers of 2. Disbursing
    stations with ratios greater than 1 have a disproportionate share of interagency transfer differences.
2
    Navy disbursing station.
3
    Another disbursing station inappropriately charged disbursing station 178728, USS Arctic, through the
    On-line Payment and Collection System.


                                                      25
           Table F-2. Disbursing Stations With the 10 Largest Average Differences
              (Absolute Value) in Interagency Transfers: DFAS Denver Center
                                          (millions)

                                                               Average         Ratio of
                                                             Interagency     Differences
     Disbursing            Disbursing        Disbursing        Transfer    to Interagency
    Station Rank         Station Number   Station Location   Differences      Transfers

          1                      575257   Omaha,                $56.7          10.5
                                          Nebraska

          2                      576723   San Bernadino,          5.4            0.5
                                          California

          3                      573801   Denver,                 5.2            0.1
                                          Colorado

          4                      575030   Dayton, Ohio            4.6            0.3

          5                      576688   Yokota, Japan∗          3.4            6.1

          6                      576624   Orlando, Florida        1.9            5.2

          7                      576671   Limestone,              1.7            3.4
                                          Maine

          8                      576789   Ramstein,               0.6            2.8
                                          Germany

          9                      578468   Denver,                 0.1            0.1
                                          Colorado*

         10                      576683   Pearl Harbor,           0.1            0.1
                                          Hawaii

       Total                                                   $79.7




∗
 Air Force disbursing station.


                                             26
              Table F-3. Disbursing Stations With the 10 Largest Average Differences
               (Absolute Value) in Interagency Transfers: DFAS Indianapolis Center
                                             (millions)

                                                                 Average           Ratio of
                                                               Interagency       Differences
       Disbursing            Disbursing        Disbursing        Transfer      to Interagency
      Station Rank         Station Number   Station Location   Differences        Transfers

             1                  215570      Indianapolis,        $143.0              3.7
                                            Indiana

             2                  215286      Omaha,                109.4              4.0
                                            Nebraska

             3                  216551      Columbus, Ohio          73.1             1.6

             4                  216410      Rock Island,            23.1             6.3
                                            Illinois

             5                  216355      Columbus, Ohio          22.1             1.8

             6                  218726      St. Louis,              15.9           52.0
                                            Missouri1

             7                  216436      Winchester,               2
                                                                                     0.1
                                            Virginia1

             8                  216358      Pearl Harbor,             2
                                                                                     0.1
                                            Hawaii1

             9                  216350      Yokota, Japan1            2
                                                                                     0.1

            10                  216388      Norfolk,                  2
                                                                                     1.5
                                            Virginia
                                                                 ___________



          Total                                                  $386.6




1
    Army disbursing station.
2
    Differences less than $50,000.


                                                27
Appendix G. Disbursing Stations With the
            10 Largest Average Differences in
            Checks Issued at Each DFAS Center
            Tables G-1 through G-3 include the 10 largest average differences in checks
            issued for the DFAS Cleveland Center, DFAS Denver Center, and DFAS
            Indianapolis Center. Tables for disbursing stations reporting to the U.S. Army
            Corps of Engineers (Corps) are not included because only 1 of the disbursing
            stations reporting to the Corps was included among the disbursing stations with
            the 10 largest average differences in checks issued. Data regarding the Corps’
            disbursing stations are available upon request.

             Table G-1. Disbursing Stations With the 10 Largest Average Differences
                   (Absolute Value) in Checks Issued: DFAS Cleveland Center
                                            (millions)
                                                              Average           Ratio of
       Disbursing        Disbursing          Disbursing     Checks Issued    Differences to
      Station Rank     Station Number     Station Location   Differences     Checks Issued1
            1               175207      Bayonne, New           $176.9              3.3
                                        Jersey
            2               175234      Oakland, California     158.5              0.9
            3               175245      Norfolk, Virginia       146.0              0.9
            4               178522      Cleveland, Ohio         121.5              1.5
            5               175704      Columbus, Ohio          110.9              3.4
            6               178380      Pensacola, Florida       94.0             14.9
             7                   178347          Charleston, South                 60.8                   0.2
                                                 Carolina
             8                   178538          Columbus, Ohio                    41.4                   0.9
             9                   176140          Naval Station,                    41.2                   4.8
                                                 Guam2
           10                    178780          Yokota, Japan3                    39.5                    4


          Total                                                                  $990.7

1
    The disbursing station’s percentage share of average DoD-wide difference divided by the disbursing
    station’s percentage share of the average DoD-wide U.S. Treasury control total. A disbursing station
    with 4 percent of the average DoD-wide difference and 2 percent of the average DoD-wide U.S.
    Treasury control total would have a ratio of differences to checks issued of 2. Disbursing stations with
    ratios greater than 1 have a disproportionate share of checks issued differences.
2
    Navy disbursing station.
3
    Closed February 1, 1998, and transferred to Air Force disbursing station 576688, Yokota, Japan.
4
    The ratio has no mathematical definition because the denominator of the ratio (the U.S. Treasury control
    total) is zero. The disbursing station did not report its checks issued to the U.S. Treasury through the
    Defense Check Reconciliation Module.




                                                      28
              Table G-2. Disbursing Stations With the 10 Largest Average Differences
                     (Absolute Value) in Checks Issued: DFAS Denver Center
                                             (millions)

                                                                            Average                 Ratio of
       Disbursing             Disbursing            Disbursing            Checks Issued          Differences to
      Station Rank          Station Number       Station Location          Differences           Checks Issued

             1                      576596       Ramstein,                    $133.2                   12.6
                                                 Germany1

             2                      576599       Washington,                     99.2                     3

                                                 D.C.2

             3                      575914       Columbus,                       86.5                    1.5
                                                 Ohio4

             4                      575938       Ramstein,                       86.2                    7.3
                                                 Germany1

             5                      576789       Ramstein,                       61.2                    4.8
                                                 Germany

             6                      575257       Omaha,                          42.8                  41.7
                                                 Nebraska

             7                      576688       Yokota, Japan2                  39.5                    5.5

             8                      573801       Denver,                         36.6                    1.3
                                                 Colorado

             9                      578559       Columbus, Ohio                  32.1                    6.1

            10                      575030       Dayton, Ohio                    29.9                  22.5

          Total                                                               $647.2




1
    Transferred to DFAS disbursing station 576789, Ramstein, Germany.
2
    Air Force disbursing station.
3
    The ratio has no mathematical definition because the denominator of the ratio (the U.S. Treasury control
    total) is zero. The disbursing station did not report its checks issued to the U.S. Treasury through the
    Defense Check Reconciliation Module.
4
    Closed May 31, 1992, and transferred to DFAS disbursing station 578541, Columbus, Ohio.


                                                      29
             Table G-3. Disbursing Stations With the 10 Largest Average Differences
                  (Absolute Value) in Checks Issued: DFAS Indianapolis Center
                                            (millions)

                                                                          Average                  Ratio of
       Disbursing            Disbursing             Disbursing          Checks Issued           Differences to
      Station Rank         Station Number        Station Location        Differences            Checks Issued

             1                  218735          Millington,                  $110.5                    39.4
                                                Tennessee1

             2                  216356          Columbus, Ohio                 98.9                     2.4

             3                  218579          Kaiserslautern,                93.2                     9.3
                                                Germany1

             4                  215499          Mons, Belgium1                 86.4                    19.5

             5                  215286          Omaha,                         77.4                    16.2
                                                Nebraska

             6                  215570          Indianapolis,                  53.7                     0.3
                                                Indiana

             7                  216944          Fort George                    49.3                     1.1
                                                Meade,
                                                Maryland1

             8                  215058          Indianapolis,                  41.5                     5.0
                                                Indiana2

             9                  216460          Schwetzingen,                  35.2                     6.6
                                                Germany1

            10                  216551          Columbus, Ohio                 27.5                     1.2

          Total                                                              $673.6




1
    Army disbursing station.
2
    Closed. Closure date not available. Transferred to Army disbursing station 215053, Indianapolis,
    Indiana.


                                                     30
Appendix H. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Corps of Engineers
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland Center
   Director, Defense Finance and Accounting Service Columbus Center
   Director, Defense Finance and Accounting Service Denver Center
   Director, Defense Finance and Accounting Service Indianapolis Center
   Director, Defense Finance and Accounting Service Kansas City Center

Non-Defense Federal Organization
Office of Management and Budget




                                         31
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       32
Under Secretary of Defense (Comptroller)
Comments




                       33
Department of the Army Comments




                     34
Department of the Navy Comments




                     35
36
Department of the Air Force Comments




                      37
Defense Finance and Accounting Service
Comments




                       38
39
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, produced this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Brian M. Flynn
Robert E. Benefiel, Jr.
Mark S. Henricks
S. David Brister
J. J. Delino
Tara L. Drotar
Margaret R. Westfall
Christopher A. Ulrich
Elizabeth N. Lavallee
